<html>
<title> - OVERSIGHT OF FEDERAL ASSISTANCE FOR PRISONER REHABILITATION AND REENTRY IN OUR STATES</title>
<body><pre>[Senate Hearing 109-1059]
[From the U.S. Government Printing Office]


                                                      S. Hrg. 109-1059

 
OVERSIGHT OF FEDERAL ASSISTANCE FOR PRISONER REHABILITATION AND REENTRY 
                             IN OUR STATES

=======================================================================


                                HEARING

                               before the

             SUBCOMMITTEE ON CORRECTIONS AND REHABILITATION

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 21, 2006

                               __________

                          Serial No. J-109-114

                               __________

         Printed for the use of the Committee on the Judiciary



                  U.S. GOVERNMENT PRINTING OFFICE
34-118                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 Fax: (202) 512-2250  Mail: Stop IDCC, Washington, DC 20402-0001



                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
           Michael O'Neill, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

             Subcommittee on Corrections and Rehabilitation

                     TOM COBURN, Oklahoma, Chairman
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
JEFF SESSIONS, Alabama               PATRICK J. LEAHY, Vermont
JOHN CORNYN, Texas                   JOSEPH R. BIDEN, Jr., Delaware
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
                  Mary Chesser, Majority Chief Counsel
                  Mark Keam, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Coburn, Hon. Tom, a U.S. Senator from the State of Oklahoma......     1
Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................     3
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepard statement...................................    79

                               WITNESSES

Bishop, Mason M., Deputy Assistant Secretary, Employment and 
  Training Administration, U.S. Department of Labor, Washington, 
  D.C............................................................     7
Bogart, Robert J., Director, Center for Faith Based and Community 
  Initiatives, U.S. Department of Housing and Urban Development, 
  Washington, D.C................................................     9
Nolan, Cheri, Senior Policy Advisor, Criminal and Juvenile 
  Justice, Substance Abuse and Mental Health Administration, U.S. 
  Department of Health and Human Services, Washington, D.C.......    11
Schofield, Regina B., Assistant Attorney General, Office of 
  Justice Programs, U.S. Department of Justice, Washington, D.C..     5
Werholtz, Roger, Secretary, Kansas Department of Corrections, 
  Topeka, Kansas.................................................    20
Williams, B. Diane, President and Chief Executive Officer, Safer 
  Foundation, Chicago, Illinois..................................    22

                         QUESTIONS AND ANSWERS

Responses of Mason M. Bishop to questions submitted by Senator 
  Coburn.........................................................    33
Responses of L. Carter Cormick III, for Robert J. Bogart to 
  questions submitted by Senator Coburn..........................    43
Responses of Cheri Nolan to questions submitted by Senator Coburn    49
Responses of Roger Werholtz to questions submitted by Senator 
  Coburn.........................................................    58
Responses of B. Diane Williams to questions submitted by Senator 
  Coburn.........................................................    62

                       SUBMISSIONS FOR THE RECORD

Bishop, Mason M., Deputy Assistant Secretary, Employment and 
  Training Administration, U.S. Department of Labor, Washington, 
  D.C., statement................................................    64
Bogart, Robert J., Director, Center for Faith Based and Community 
  Initiatives, U.S. Department of Housing and Urban Development, 
  Washington, D.C., statement....................................    75
Nolan, Cheri, Senior Policy Advisor, Criminal and Juvenile 
  Justice, Substance Abuse and Mental Health Administration, U.S. 
  Department of Health and Human Services, Washington, D.C., 
  statement......................................................    81
Schofield, Regina B., Assistant Attorney General, Office of 
  Justice Programs, U.S. Department of Justice, Washington, D.C., 
  statement......................................................    88
Werholtz, Roger, Secretary, Kansas Department of Corrections, 
  Topeka, Kansas, statement......................................   101
Williams, B. Diane, President and Chief Executive Officer, Safer 
  Foundation, Chicago, Illinois, statement.......................   108


OVERSIGHT OF FEDERAL ASSISTANCE FOR PRISONER REHABILITATION AND REENTRY 
                             IN OUR STATES

                              ----------                              


                      THURSDAY, SEPTEMBER 21, 2006

                                       U.S. Senate,
            Subcommittee on Corrections and Rehabilitation,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:34 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Tom Coburn, 
Chairman of the Subcommittee, presiding.
    Present: Senators Coburn, Sessions, Brownback, and Durbin.

 OPENING STATEMENT OF HON. TOM COBURN, A U.S. SENATOR FROM THE 
                       STATE OF OKLAHOMA

    Chairman Coburn. The Subcommittee on Corrections and 
Rehabilitation of the Senate Judiciary Committee will come to 
order.
    First of all, I want to take this moment to thank each of 
you who are participating on our two panels today. This is an 
oversight hearing on Federal assistance for prisoner 
rehabilitation and reentry in our States.
    What we do know is whatever, positive or negative, that 
prisoners learn in prison will be reflected in their behavior 
outside of prison. The statistics are somewhere around 9 
million people go through our prisons in a year, and we have in 
excess of 2 million people incarcerated.
    The purpose of the hearing is to learn about every Federal 
tax dollar that has recently been spent on programs to aid 
State and local prisoner reentry initiatives. Since 2001, the 
Federal Government, through the Prisoner Reentry Initiative, 
the Serious and Violent Offender Reentry Initiative, Byrne JAG 
grants, demonstration grants, and various research initiatives, 
has spent over $400 million to help States and local 
governments provide programs to assist in prisoner reentry. 
Additionally, there are grants, technical information, and best 
practices provided by various agencies to help prevent crime 
and provide alternatives to incarceration.
    We have a large job in front of us today because to date 
Congress has not reviewed some of its larger investments like 
the Serious and Violent Offender Reentry Initiative or some of 
the pilot programs, like the Transition from Prison to 
Community Initiative employed in eight States or the 
demonstration program employed through the National Governors 
Association in seven States.
    At the end of the hearing today, I hope we will, first of 
all, become more familiar with all the programs that are there, 
the funding opportunities available through the various 
agencies that assist in prisoner reentry, the goal of those 
programs, and the type of accountability that is built in to 
ensure that the tax dollars are well spent and meet the goals 
and the visions of those programs. Ninety-one-point-six percent 
of all inmates are held in State facilities for violating State 
laws. Additionally, we know that 16 States hold almost 71 
percent of all inmates. While incarceration generates high 
costs, we know that States this past year had $57 billion in 
excess revenues. Thirty-eight States' revenues exceeded their 
budget projections and 10 States' revenues were on target. 
Unexpended revenues probably can and should be focused on one 
of the critical areas in our country that needs addressing, and 
that is the effects of incarceration. How do we make good, 
productive citizens of people who have made a mistake, paid the 
price, and do not go back in?
    What we do know is that the recidivism rate is high, and we 
know that two-thirds of that recidivism, that reincarceration 
occurs within the first 6 months following--actually, it is 
half occurs within the first 6 months following release from 
incarceration. We need to do a better job as a Nation. The 
States need to do a better job.
    Eighty percent of State prisoners report a history of drug 
or alcohol use. In fact, 55 percent of State prisoners report 
using drugs or alcohol during the commission of the crime that 
resulted in their incarceration. I am a big proponent of drug 
treatment and addiction treatment, and when we fail to do that, 
we fail to offer a hope and a chance for many people who are 
incarcerated.
    A study in Texas found that an unemployed offender is 3 
times more likely to return to prison than one who is employed. 
Similarly, New York's Department of Labor reports that 83 
percent of offenders who violated probation or parole were 
unemployed.
    With the knowledge we have about the trends in recidivism 
and the commonalities among inmates, we can evaluate the 
programs we have to make sure they are targeting the right 
needs.
    I met with a number of groups and also a number of 
corrections staff. One program in particular that stands out to 
me as a phenomenal success is being executed by two U.S. 
probation officers--one in eastern Missouri and another in 
western North Carolina. These two officers are motivated to 
make a difference in the lives of inmates, and they have used 
their resources in very creative ways. They focus specifically 
on employment.
    Using job retention training, the Federal Bonding Program, 
employer tax credit, and job fairs for ex-offenders, they were 
able to reduce the unemployment statistics for the people in 
their charge from 12.1 percent in 2000 to 3.3 percent in 2006. 
The most amazing thing is that the unemployment rate for ex-
offenders in their areas of coverage in 2006 was lower than the 
unemployment rate in their respective areas for all the 
citizens as a whole.
    As of this month, the unemployment rate is at an all-time 
low for ex-offenders in eastern Missouri at 2.54 percent, while 
the community's unemployment rate is 5.1 percent. This 
incredible success has had a significant effect on revocation. 
Even though the released offender caseload has increased over 
the years, the number of revocations has decreased. It is all 
related to employment, employing skills, getting out of an 
addictive habit and being employed and building self-esteem 
based on that.
    The success of the program is attributed to offender 
employment following release, offender education programs in 
prison, mandatory evening and weekend work for supervision 
officers, increased treatment options, search and surveillance 
team support, and credibility from the bench, passionate staff, 
and good press.
    After meeting these gentlemen, there is no doubt in my mind 
that the success of their program is because of the character 
of the men leading it. People make the difference in successful 
reentry, both the corrections officers and the incarcerated 
individuals.
    At the Judiciary Committee hearing this last Tuesday on the 
cost of crime, one Senator pointed out that the Residual Drug 
Treatment Program in Federal prisons is offered to all inmates 
who volunteer. In the followup question and answer period, the 
Director of the Bureau of Prisons, Harley Lappin, agreed that 
if all inmates with a drug treatment need were forced to 
participate in the program, the success of the program might be 
reduced because the volunteer nature of the program makes it 
more successful. We all know that you have to recognize the 
need before you are going to take the help for the need. But 
the total numbers might, in fact--the total numbers of people 
employed and out of a drug-addicted or alcohol-addicted 
position might actually increase.
    Our second panel today includes witnesses who work in the 
field of corrections. Both have received Federal grants and can 
report back to us about interactions with various agencies. 
Senator Durbin and myself look forward to learning about the 
grant process, the role of nonprofits, associations, or lobbies 
play in helping identify and achieve available funds, how 
federally funded programs interact with State programs, and 
accountability measures built in to followup with the grantees 
and their programs.
    Finally, we will look forward to hearing from our second 
panel about how States are handling the problems associated 
with recidivism.
    I thank all our witnesses for being here today, and I look 
forward to your testimony. I want to specifically thank the 
witnesses on our second panel. We know that you and the 
750,000-plus Americans employed in corrections are making a 
difference in the lives of inmates. The work you do and your 
ability to impact inmates is tremendous.
    Senator Durbin.

STATEMENT OF HON. RICHARD DURBIN, A U.S. SENATOR FROM THE STATE 
                          OF ILLINOIS

    Senator Durbin. Thank you, Mr. Chairman. I am going to ask 
that my entire statement be made part of the record.
    Chairman Coburn. Without objection.
    Senator Durbin. I will just echo your remarks. There are 9 
million people incarcerated today in the world. A fourth of 
them are in the United States, one out of four. We have seen a 
dramatic increase in incarcerations. Some 700,000 people are 
released from prison each year. On average, somewhere between 
55 and 65 percent of them will commit another crime.
    The obvious question is: What can we do to make people pay 
a price for those things that they have done wrong, but to make 
certain that we do not pay that price a second time as a 
society if those who are released from prison commit another 
crime?
    There are some things that are very obvious. Many people 
enter prison today with drug addictions and are never treated. 
We also know that many people enter prison with some vestige of 
a family life and see it disintegrate because of lack of 
opportunity to make a telephone call or to have a meaningful 
visit with a member of your family because of where your prison 
is located or what the prisoner visitation rights happen to be.
    We know that education is the single best thing that we can 
do to turn the life around of a prisoner, and yet we face this 
Faustian chance--I faced it as a Congressman--of what to do in 
a society where we have too few dollars for Pell grants to help 
low-income students go to college. So do you give the Pell 
grants to the kids who did not commit the drug crimes and want 
to go to college? Or do you give them to those youngsters who 
were incarcerated for committing a drug crime?
    A terrible choice. And we know if we do not provide this 
financial assistance, some of these inmates will never achieve 
the skills and education they need to turn their lives around.
    Too many people incarcerated today have a serious mental 
illness and get virtually no treatment for it while they are 
incarcerated. And that means that they leave prison perhaps in 
worse shape than they entered.
    We know that when it comes to returning to society, there 
are a lot of helping hands that can make a big difference, 
whether it is first a family or a church or a business or an 
organization. I have seen it all over my State of Illinois, and 
many people here have as well. We need to create incentives for 
that helping hand to give people a chance.
    I want to especially note before I close, Mr. Chairman, 
that we have one witness today, Diane Williams, who is 
President and CEO of the Safer Foundation, on our second panel. 
In my State of Illinois and perhaps regionally, maybe 
nationally, Safer Foundation is one of the most outstanding 
operations in terms of noting the nature of this problem and 
suggesting meaningful ways to address it.
    Thank you for this hearing.
    [The prepared statement of Senator Durbin appears as a 
submission for the record.]
    Chairman Coburn. Thank you.
    I am going to introduce the witnesses and then we will 
swear you in. The first witness is Regina Schofield, Assistant 
Attorney General at the Office of Justice Programs. Ms. 
Schofield was confirmed as Assistant Attorney General for OJP 
on June 8, 2005. She is responsible for providing overall 
management and oversight of OJP, whose mission is to enlarge 
the Nation's capacity to prevent and control crime, improve the 
criminal and juvenile justice systems, increase knowledge about 
crime and related issues, and assist crime victims. She also 
guides the development of that office's policy and priorities 
and coordinates the activities of its bureaus and offices.
    Next is Mr. Mason Bishop. He is Deputy Assistant Secretary 
for the Employment and Training Administration at the 
Department of Labor. He is responsible for overseeing key 
workforce investment programs, developing and implementing 
workforce policies and priorities, and assisting with 
congressional relations and legislative issues. He also plays a 
lead role in the reauthorization of the Workforce Investment 
Act.
    Next is Robert Bogart. He is the Director of the White 
House Center for Faith Based and Community Initiatives at the 
U.S. Department of Housing and Urban Development. As the 
Director of the HUD Center, Mr. Bogart ensures that faith-based 
and community organizations have equal access to Federal 
dollars.
    Our final witness is Cheri Nolan. She is the senior policy 
advisor on criminal and juvenile justice issues to the 
Substance Abuse and Mental Health Services Administration, also 
known as SAMHSA. She assumed her current responsibilities in 
September of 2005. At SAMHSA, she manages and oversees all 
criminal, juvenile, and faith-based issues that confront the 
agency.
    If you would each stand and repeat after me: I swear that 
the testimony that I am about to give before the Judiciary 
Subcommittee on Rehabilitation and Corrections is the truth, 
the whole truth, and nothing but the truth, so help me God?
    [Witnesses repeat oath.]
    Chairman Coburn. Thank you. You may be seated.
    Ms. Schofield, turn your mike on, if you would, please. You 
are recognized for 5 minutes

 STATEMENT OF REGINA B. SCHOFIELD, ASSISTANT ATTORNEY GENERAL, 
    OFFICE OF JUSTICE PROGRAMS, U.S. DEPARTMENT OF JUSTICE, 
                        WASHINGTON, D.C.

    Ms. Schofield. Dr. Coburn, Senator Durbin, I am Regina B. 
Schofield, the Assistant Attorney General for the Office of 
Justice Programs. I am pleased to be here this afternoon on 
behalf of Attorney General Gonzales, the U.S. Department of 
Justice, and the Office of Justice Programs to discuss the 
Department's efforts to aid State and local reentry 
initiatives.
    I am also honored to be here not only with representatives 
from other Federal agencies, but also Diane Williams and Roger 
Werholtz. OJP has worked with both of them, and I know that 
they will contribute greatly to today's hearing.
    Most offenders, including the most violent offenders, will 
eventually return to their communities. A study from OJP's 
Bureau of Justice Statistics found that more than two-thirds of 
all released offenders were rearrested within 3 years. So, of 
the 650,000 people who are released from prison annually, over 
400,000 are likely to be rearrested.
    Between the harm caused by their original crimes, the 
injuries inflicted by their new offenses, and the collective 
damage they do to both their neighborhoods and their 
communities, the path of destruction recidivists leave is wide 
and long.
    The issue of prisoner reentry has been of great concern to 
this administration since early in President Bush's first term. 
In 2002, the Department of Justice, in an unprecedented 
partnership with other Federal agencies, launched ``Going Home: 
The Serious and Violent Offender Reentry Initiative,'' or 
SVORI.
    Under SVORI, we have awarded more than $120 million to 69 
grantees, covering all 50 States, the District of Columbia, and 
the Virgin Islands. These grants helped to support States and 
communities as they developed and implemented their own reentry 
strategies. Although the strategies were designed by States and 
communities to meet their own specific needs, they all share a 
three-pronged approach that covers every stage of the reentry 
process. First, while participating offenders are still 
incarcerated, reentry partners assess their needs, their 
skills, and the risk they pose to public safety, and develop 
formal reentry plans. Second, as soon as these offenders are 
released, they are closely supervised, often with the 
requirement that they report to a judge or corrections officer, 
and receive treatment and training. Finally, a network of 
public and private agencies provides long-term support as the 
offenders reintegrate.
    The SVORI reentry plans also include participation by the 
faith-based community, neighborhood residents, local police, 
and close consultation with State and local government 
officials, corrections staff, probation and parole officers, 
treatment providers, and others.
    The feedback to date has been very encouraging. We have 
completed the first phase of a two-phase, multi-year evaluation 
of the SVORI programs. The evaluation shows that these programs 
have been successful in bridging the gaps in existing State and 
local efforts. They are providing much needed transition 
services, such as counseling, mentoring, and job training. And 
they are closely coordinating pre-release and post-release 
services.
    The next phase of the evaluation is a 4-year impact study 
that will measure program outcomes. It will tell us what impact 
SVORI programs have had on recidivism and whether they are 
cost-effective. We will continue to share these findings as 
they become available.
    The SVORI grants expired this year, but we are taking what 
we have learned from these programs and applying it to the 
President's Prisoner Reentry Initiative, or PRI. PRI is a 
Federal partnership that is intended to help ex-offenders find 
and keep employment, obtain transitional housing, and receive 
mentoring. It also harnesses the resources and experience of 
faith-based and community organizations in helping returning 
inmates contribute to society.
    In fiscal years 2005 and 2006, we awarded $12.9 million to 
States for pre-release planning and services for non-violent 
offenders, ages 18 and older. These grants were designed to 
complement the Department of Labor's portion of the initiative, 
under which 30 community and faith-based organizations in 20 
States received awards to provide post-release services such as 
mentoring, employment assistance, and housing assistance.
    As the Subcommittee requested, I am submitting for the 
record detailed information on our reentry program. The 
President, the Attorney General, and I believe that 
successfully reintegrating offenders back into their 
communities is one of the most pressing criminal justice issues 
facing our country today. State and local governments have 
demonstrated that thoughtful policies and programs can be 
developed to address this issue. We are committed to doing all 
that we can to continue to support their good work.
    We appreciate the interest that you and your colleagues 
have shown, and I welcome the opportunity to answer any 
questions you may have. Thank you.
    [The prepared statement of Ms. Schofield appears as a 
submission for the record.]
    Chairman Coburn. Thank you.
    Mr. Bishop.

   STATEMENT OF MASON M. BISHOP, DEPUTY ASSISTANT SECRETARY, 
  EMPLOYMENT AND TRAINING ADMINISTRATION, U.S. DEPARTMENT OF 
                    LABOR, WASHINGTON, D.C.

    Mr. Bishop. Mr. Chairman and members of the Committee, I am 
pleased to have the opportunity to represent Secretary Chao and 
to discuss the Department of Labor's considerable work on 
prisoner reentry initiatives. My written testimony describes in 
detail the programs and funding sources currently available for 
reentry efforts.
    Each year, more than 650,000 inmates are released from 
Federal and State prisons. These released prisoners face 
difficult challenges as they reconnect to society. Unemployment 
among ex-prisoners can be as high as 40 percent, and 
joblessness among ex-prisoners has been linked to recidivism 
rates.
    Prisoners also demonstrate low levels of educational 
attainment. Forty percent of adult State prisoners are 
functionally illiterate, and over half of State parole entrants 
are not high school graduates.
    In contrast, the fastest-growing jobs on average require a 
high school diploma and a post-secondary credential such as a 
vocational certificate, an industry-recognized credential, or 
an associate's or higher degree. At the same time, the need for 
workers is increasing due to the retirement trends of the baby-
boom generation and lower birth rates in recent years.
    To keep pace with the demand for skilled workers, every 
facet of the population, including ex-offenders, will be 
needed. Ex-offenders are an important supply pipeline for the 
unfilled high-growth jobs of today and for the jobs of the 
future and, therefore, must be actively engaged to take part in 
the labor force.
    Without intervention, many ex-prisoners will commit new 
crimes and be reincarcerated in the first 3 years after their 
release from prison. Research has also broadly documented the 
substance abuse and mental health issues of ex-prisoners--
factors that are likely to contribute to poor education levels, 
lack of employability, and a return to criminal activity.
    In returning to criminal activity, ex-prisoners reduce 
their chances of living healthy and positive lives for both 
themselves and their families. On the other hand, ex-offenders 
who maintain strong family and community ties have greater 
success in reintegrating into the community and avoiding 
incarceration.
    Given these issues, the philosophical underpinnings of the 
Department of Labor's reentry efforts include: first, having 
employment be the goal and at the core of all reentry efforts; 
and, second, assuring the continued and strengthened role for 
faith-based and community-based organizations as primary 
partners since they often possess unique strengths and 
resources for delivering social services to ex-prisoners within 
their communities.
    A focal point of these reentry efforts is the President's 
Prisoner Reentry Initiative, as well as a series of other 
programs and initiatives under the Responsible Reintegration of 
Youthful Offenders appropriation. All together the Department 
of Labor has invested more than $372 million in prisoner 
reentry efforts of various types.
    Under the President's Prisoner Reentry Initiative, which he 
announced in the January 2004 State of the Union address, the 
Department of Labor has awarded 30 grants to strengthen urban 
communities characterized by large numbers of returning 
prisoners through an employment-centered program that 
incorporates mentoring, job training, and comprehensive 
transitional services.
    In implementing the grants, we have put much emphasis on 
job development, contacts with private sector employers, and 
high-growth employment. The goal is to serve 6,250 released 
prisoners during the first year of the initiative. Grantees 
began operating in March of 2006, and as of September 8th of 
2006, 2,874 participants had been enrolled and 1,469 have been 
placed in jobs.
    Under the Responsible Reintegration of Youthful Offenders 
appropriation, the Department has funded a variety of projects 
aimed at serving young offenders, at-risk youth, and youth in 
juvenile or adult justice systems. The projects focus on 
demand-driven strategies designed to move youth into high-
growth occupations and provide education and training, 
employment, and community services to facilitate reentry. The 
funded programs also include State-operated juvenile justices 
aimed at improving the academic and work force preparation of 
youth in correctional facilities, among others.
    Much is being accomplished through these programs. Grants 
are serving large numbers of youth each year in high-crime 
communities. Local community grants have succeeded in placing 
youth in employment. State grants are increasing the reading 
and math achievement levels of youth, in large part because 
they can spend time while those youth are behind bars.
    The Department has also participated in the Department of 
Justice-led Serious and Violent Offender Reentry Initiative, 
which reduces further criminal activity by violent ex-
offenders, as was stated.
    Another program the Department initiated is the Ready4Work 
program, which uses community and faith-based organizations to 
help those returning from prison find jobs and assist their 
transition into society. Through this program, we have seen 
lower recidivism rates and success at placing participants in 
jobs.
    Finally, the Department manages other programs and 
initiatives that also contribute to the Prisoner Reentry 
Initiative, such as the Work Opportunity Tax Credit, the 
Federal Bonding Program, and the Incarcerated Veterans 
Transition Program, all of which are included in my written 
testimony.
    Finally, one of the unheralded efforts has been this 
administration's efforts to break down agency and system silos 
and work together as Federal agencies to solve this problem. 
During the past few years, the Department of Labor has worked 
closely with Justice, Health and Human Services, Education, and 
HUD in support of the overall vision to ensure ex-offenders are 
integrated into communities and become productive members of 
society. This collaborative approach is reflected in all of our 
strategic investments whereby we leverage each other's 
resources and fully coordinate efforts. In addition, each of 
the agencies before you are breaking down system barriers at 
the State and local levels to foster a more integrated approach 
to serving ex-offenders.
    Mr. Chairman, this concludes my oral remarks, and I have 
submitted written remarks for the record.
    [The prepared statement of Mr. Bishop appears as a 
submission for the record.]
    Chairman Coburn. Thank you very much.
    Mr. Bogart.

STATEMENT OF ROBERT J. BOGART, DIRECTOR, CENTER FOR FAITH BASED 
AND COMMUNITY INITIATIVES, U.S. DEPARTMENT OF HOUSING AND URBAN 
                 DEVELOPMENT, WASHINGTON, D.C.

    Mr. Bogart. Thank you, Dr. Coburn.
    Dr. Coburn, Ranking Member Durbin, Senator Sessions, it is 
a pleasure to be here today on behalf of Secretary Alphonso 
Jackson, and thank you for the opportunity to testify on 
Federal assistance for prisoner reentry.
    Every year, more than 650,000 men and women are released 
from America's prisons, many of them without a place to go, 
without a place to call home. The result is that many of those 
who leave our prisons go directly to the streets where they are 
extremely vulnerable to the temptations that exist there. The 
challenges of reentry are great, especially for those without 
the safety and stability of a home.
    Dan Buck, the CEO of the St. Patrick Center in St. Louis, 
an exceptional organization that is the recipient of 
Departments of Justice and Labor prisoner reentry funds, 
explained the situation this way: You get a job interview. What 
address do you put down? What phone number do you list? You get 
kicked out of your transitional housing center at 6:30 in the 
morning. Your interview is at 11. Where do you go? What do you 
do? How do you stay clean? How do you stay out of trouble? And 
how do you succeed?
    The answer to the last question is very clear. Many don't, 
as approximately two-thirds of recently released men and women 
are rearrested within 3 years of their release. Dan Buck would 
say that the glaring hole in their reentry program is housing.
    The system needs to be broken, not only for the sake of 
those in the community victimized by crime, but also for the 
sake of the men and women who are reacclimating back to 
society. Only comprehensive solutions that provide 
opportunities for self-sufficiency and dignity will be an 
effective catalyst for change.
    Again, the St. Patrick Center is an exceptional example 
that provides these comprehensive, pragmatic, and dignified 
wrap-around services. With limited Government support, the 
center serves over 10,000 individuals and families annually and 
is Missouri's largest provider of homeless services. Nearly 60 
percent of the men and women St. Patrick Center serves have a 
criminal record, and those that participated in privately 
funded focus groups, receiving at least 2 months of clean, 
stable, dignified housing, experienced a 100-percent job 
placement rate. The rest of their client base experienced a 50-
percent success rate, which is admirable but is still not 100 
percent.
    In his 2004 State of the Union address, President Bush 
proposed a 4-year, $300 million Prisoner Reentry Initiative to 
reduce recidivism and help ex-offenders contribute to their 
communities, rebuild their lives, stay out of trouble, and stay 
out of the many paths that lead to prison. The objective of 
this initiative would be achieved by harnessing the resources 
and the experience of faith-based and community organizations 
like the St. Patrick Center and providing newly released 
prisoners with comprehensive services, such as job training, 
mental health counseling, transitional housing, and mentoring 
support.
    Although the U.S. Department of Housing and Urban 
Development has requested PRI funding, it has yet not received 
any. A critical component of a successful Prisoner Reentry 
Initiative is providing housing because, as stated earlier, 
many newly released men and women need a place to reside 
immediately upon their release from prison, at a minimum on a 
temporary basis. If HUD were given PRI funding, it could then 
provide this very fundamental need to this at-risk population.
    HUD's budget request for fiscal years 2005, 2006, and 2007 
called for the provision of transitional housing as part of PRI 
funding. PRI funding is needed because HUD lacks the requisite 
authority to use the funds for the discharge planning of 
individuals from institutions. Therefore, the advantage of 
funding for the PRI is that HUD would be given authority to 
fund grantees providing housing specifically for ex-offenders 
who are not defined as homeless.
    Given that adequate housing is an important component of 
successful reentry into society for these men and women, HUD 
respectfully urges Congress to appropriate $25 million for this 
important initiative, as requested in HUD's fiscal year 2007 
budget request. These funds would be made competitively 
available to faith-based and community organizations with 
established, proven success addressing the special needs of 
these men and women who have already struggled so much and have 
paid their debts to society. Organizations considered may 
already be involved with the Departments of Labor and Justice 
prisoner reentry efforts, thus building on their success.
    This is a landmark opportunity. The strategic partnerships 
will help these men and women know the meaning of 
accomplishment, rebuild their dignity, and become taxpayers and 
not tax burdens.
    Thank you sincerely for the opportunity to speak with you 
today, and I will look forward to your questions.
    [The prepared statement of Mr. Bogart appears as a 
submission for the record.]
    Chairman Coburn. Thank you.
    Ms. Nolan.

 STATEMENT OF CHERI NOLAN, SENIOR POLICY ADVISOR, CRIMINAL AND 
      JUVENILE JUSTICE, SUBSTANCE ABUSE AND MENTAL HEALTH 
 ADMINISTRATION, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES, 
                        WASHINGTON, D.C.

    Ms. Nolan. Mr. Chairman, Senator Durbin, Senator Sessions, 
I am pleased to be here on behalf of the Substance Abuse and 
Mental Health Services Administration to discuss our efforts in 
support of the important national issue of prisoner reentry.
    During my tenure of Government service, I have seen 
firsthand the cycle of crime, arrest, incarceration, reentry, 
rearrest, and reincarceration, and the horrible costs this 
cycle has caused society, not only the direct costs of criminal 
behavior to law enforcement, prosecutors, and the jail and 
prison system, but the cost to victims of crime and the impact 
on the quality of life and communities all across the country.
    Recidivism is not just a statistic but an action that has a 
ripple effect across many individuals, families, and 
institutions. It is because of my expertise and commitment to 
this issue that I was brought to SAMHSA last year to facilitate 
the connection between public safety and public health.
    Studies have shown a significant number of these men and 
women have substance abuse and mental health treatment needs. A 
study recently released by the Bureau of Justice Statistics 
confirms that large numbers of inmates display symptoms of 
depression, mania, or psychotic disorder. In State prisons, 73 
percent of female inmates and 55 percent of male inmates had 
mental health problems. In local jails, the numbers are 
similar. More than one in three State prisoners, one in four 
Federal prisoners, and one in six jail inmates who had a mental 
health problem have received treatment since admission.
    The findings clearly indicate the tremendous need to 
connect released prisoners with mental health treatment in the 
community. The study also found that prisoners with mental 
health problems were more likely to have repeated periods of 
incarceration and substance abuse problems.
    In the area of substance abuse among the jail and prison 
population, studies over the past two decades have consistently 
found that 60 percent of offenders tested at the time of arrest 
have admitted to or been found to have used at least one 
illicit drug.
    SAMHSA is actively involved in a number of public safety/
public health initiatives that deal with addressing individuals 
with substance abuse and/or mental health disorders who are 
involved in the criminal and juvenile justice systems. SAMHSA 
is also committed to partnering with other Federal agencies and 
to assisting the States and local communities through our 
criminal and juvenile justice grant programs.
    SAMHSA was an original partner with the Department of 
Justice surrounding the Serious and Violent Offender Reentry 
Initiative that Assistant Attorney General Schofield discussed, 
contributing more than $16 million to the effort. In addition, 
we are providing criminal justice, substance abuse disorder 
cross-training to all the grantees to improve the delivery of 
substance abuse prevention and treatment services.
    We at SAMHSA are encouraged by the early measures of 
success of the initiative, and we anxiously await the findings 
of the impact evaluation. It is important to know what works 
surrounding prisoner reentry and the costs and benefits of 
various approaches. The most recent data on recidivism is 
almost 10 years old.
    In the last few months, an exciting new partnership with 
the Department of Labor-led Prisoner Reentry Initiative was 
formed by bringing together the grantees of our Access to 
Recovery Program with the Department of Labor grantees. As a 
result of this effort, clients under PRI who have substance 
abuse treatment needs are eligible for treatment and recovery 
support services provided by our Access to Recovery grantees. 
Ten of our 14 ATR grantees match with the Department of Labor, 
including Illinois. This is another example how Federal 
agencies are leveraging dollars to support reentry efforts.
    SAMHSA efforts also included funding 12 Young Offender 
Reentry Program grants in fiscal year 2004 and an additional 11 
grants were awarded in fiscal year 2005. YORP is designed to 
provide funds to expand and/or enhance substance abuse 
treatment and related reentry services to youth populations 
under the jurisdiction of the juvenile justice system.
    SAMHSA also funds 16 adult and juvenile drug court programs 
and nine family drug treatment courts, which provide a 
successful alternative to incarceration for defendants who 
cycle between addiction leading to crime, incarceration, 
release, relapse, and recidivism. Close supervision, drug 
testing, and the use of sanctions and incentives help ensure 
that offenders stick with their treatment plans while public 
safety needs are met.
    Since fiscal year 2002, SAMHSA has funded jail diversion, 
targeted capacity expansion grants that divert persons with 
mental illness from the criminal justice system to community 
mental health and supportive services. At this point we have 
funded 32 such awards of up to $400,000. These programs must 
build service capacity using four areas known to yield 
sustainable results: evidence-based services, creating service 
linkages, community outreach, and engaging in program 
evaluation and dissemination of those findings.
    SAMHSA is committed to reducing recidivism by supporting 
recovery efforts. The connection between public health and 
public safety is a critical one, and we appreciate the interest 
of this Subcommittee in our efforts, and I will be happy to 
respond to any questions that you have.
    [The prepared statement of Ms. Nolan appears as a 
submission for the record.]
    Chairman Coburn. Thank you very much.
    Ms. Schofield, one of my questions is: Why are we using 
1994 data that took 3 years, 1997, and we get the data last 
year? And when are we going to see data that is more timely? 
Have we set up anything that says we are going to have a 
continuing monitoring of this that will be statistically valid 
so that we are not depending on, in essence, 12- or 13-year-old 
data?
    Ms. Schofield. Senator, that is a good question. I actually 
have it myself on several BJS studies, and the answer is it is 
human subject research and it takes a really long time to 
gather the data. The 3-year mark is a gold standard for 
recidivism. So what happens in a typical study is that after 3 
years of release, you ask the State for names. It takes about a 
year to compile the names, to find people, to locate them. You 
try to get enough of a sample size so you will have a correct 
sample size. It takes you another 3 years to monitor those 
individuals. So now you are 6 years out. It takes another 2 
years to evaluate that information, follow up. You know, if you 
have necessary--I think the last time we did a study of this 
magnitude, it started in 1994. In 1998, we got more funding. It 
took States 2 years to provide us with the additional 
information, and you are still, you know, hounding people and 
looking for that information. And so it was 2002 before we got 
the study out.
    I have to tell you that the same thing will happen in 
another study if you are following people, as you would the ex-
offenders. If they do not have a house to stay in or consistent 
housing, that is going to be a problem.
    If we were to start a study today, 2006, it would be 3 
years before we had the information from the States, probably 
another year to gather that information, and another 3 years to 
study those individuals. So you are talking--I did go to 
college--2012 before you would even get the information that 
you need in order to do that evaluation and research.
    Chairman Coburn. Well, what would be wrong with all the 
grantees, all the States that get Federal money, saying you 
know this is going to happen, keep the data, knowing in 
anticipation we are going to be asking for it? In other words, 
there should be some strings--what I am getting to, and I am 
going to ask each of you this, is: What is the metric that we 
use to measure the grant programs that we are giving on whether 
or not they are successful? What is the metric and when will we 
know? And I would tell you on almost any scientific study, when 
the data is 9 or 10 years old, it does not really mean anything 
anymore. If we are talking about from 1994 to 1997 on 
recidivism rates--and rearrest rates really do not mean 
anything because if you have a criminal record and you are in 
the area, oftentimes you are rearrested for a short period of 
time until you are excluded, which says a whole other thing 
about some of our policing. But the point is that the rearrest 
record--it is the reincarceration or the reconviction record 
that we are really interested in. And why couldn't we make sure 
that signal goes out ahead of time with all these grants?
    One of the things we are going to be looking at as a 
condition of the grant is that you will keep track as a State, 
here is who is coming out, here are the ones that are on 
parole, here are the ones that are incarcerated. I mean, the 
States have the numbers. They have the names. It is 
anticipating what you are going to need. Why could we do that 
to shorten that period of time where we have good data?
    Ms. Schofield. We are trying to make sure that our National 
Criminal History Improvement Program has all of the funding 
that we have requested from Congress to make sure that States 
are able to build on that information. The system is not 
complete. I mean, I cannot sugarcoat it for you and tell you 
that. We work with grantees on a regular basis. You know, the 
Federal Government has gotten a lot better at evaluating 
programs and making sure that the funding goes toward the 
stream that we have asked it to go. The States are getting much 
better at keeping that sort of information. But we do have a 
lot of work to do in order to make sure that NCHIP is a 
sustainable program and that we have gotten the data that we 
get.
    The first answer I gave you was strictly about human 
subjects, so I misunderstood your question.
    Chairman Coburn. So of all the grants that DOJ makes, you 
all now have a metric attached to that, so you are going to be 
able to make a decision on those grants, on whether or not they 
are actually accomplishing what you want?
    Ms. Schofield. Every single grant that I have signed since 
I have been at the Department of Justice has performance 
measures, and, yes, sir, we are tracking and evaluating those 
programs.
    Chairman Coburn. And so how often do you release that data? 
How often do you come to a conclusion about that data?
    Ms. Schofield. Well, our Office of Comptroller, what we do 
in the Comptroller's Office or CFO's Office is, as we gather 
that information on the grantees on a regular basis, you know, 
they decide how many of the grantees they are going to evaluate 
and audit this year, and so we go through that process. You 
know, you have to go through like a rolling basis to make sure 
you are getting to all the grantees. But that is part of our 
evaluation program.
    Chairman Coburn. Well, will you supply to this Committee 
what you have seen thus far, here is what we have granted, here 
is what we have gotten back, here is how we evaluate that 
specifically?
    Ms. Schofield. Absolutely, yes.
    Chairman Coburn. All right. Thank you. My time has expired.
    We will go on the early-bird rule, if you do not mind,
     Senator Sessions. Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman.
    I think we will all agree that if a person has a mental 
illness that is part of the burden they are carrying in life, 
and they also commit a crime and then leave a corrections 
facility, that is still a challenge. That is an issue that 
still has to be dealt with. The same thing is true with 
substance addiction, whether it is alcohol or drugs. These are 
things that have to be dealt with.
    Some people may have the will to cure themselves of certain 
addictions, and I pray to God more people will. But most of us 
need a helping hand.
    But I want to go to another issue, and that issue is 
education. I think everyone here in some way or another has 
said that if we will educate and train the people who are 
incarcerated, they are less likely to commit another crime. Is 
there anyone who disagrees with that premise? That is kind of 
an accepted--I think it has been proven out over and over 
again.
    Having said that, though, we have created some 
interesting--I call them ``Faustian choices,'' impossible 
choices, when it comes to policy, and let me give you a couple 
of examples. There was a time when a person incarcerated in my 
State, and most States, could go to a community college while 
incarcerated and pick up courses to prepare them for a job when 
they are released. But, of course, they do not have a regular 
income of any value, and so they had to borrow the money or 
apply for a Pell grant.
    And so years ago, we made a decision--and I was part of 
that decisionmaking--that since we have a limited pool of Pell 
grant funds and cannot take care of all the kids who have not 
committed a crime and want to go to college, we were not going 
to provide Pell grants for those who were in correctional 
institutions. And the same thing with student loans.
    Then we took it a step further and said if you have been 
convicted of any drug offense after you leave the correctional 
facility, you are still disqualified from receiving a Pell 
grant or a student loan.
    As I understand it--and my staff is running back and forth 
to double-check that this is still the case. I think it is. And 
so for any drug conviction, large or small, we are basically 
reducing the possibility or opportunity for additional 
education to avoid recidivism. So is it time to change this 
law?
    Mr. Bishop. I am from the Department of Labor. I will take 
a crack at addressing this.
    [Laughter.]
    Mr. Bishop. Even though Pell grants are out of the 
Department of Education. I cannot address the Pell grant issue 
specifically, but I can address the issue of access to 
employment and training.
    One of the things we have been working on--Senator Sessions 
knows this well because he sits on the Senate HELP Committee--
is trying to reauthorize the Workforce Investment Act. Under 
the Workforce Investment Act, roughly $15 billion from various 
Federal agencies go to States and local communities to supply 
individuals, citizens, with employment training services. And 
one of the problems we have identified, the administration 
believes, is too much of that money goes to infrastructure and 
duplicative programs. And what we have essentially asked 
Congress to do is reform this act to allow for what are called 
career advancement accounts of up to $3,000 per year so that 
individuals like ex-offenders can get access to the education 
and training they need.
    Now, one of the issues we--
    Senator Durbin. If I can interrupt you, I am sorry. So we 
have a program that will offer some $3,000 to the ex-offender--
    Mr. Bishop. We are asking for that.
    Senator Durbin. Asking for that. And that would allow them 
to take, let's say, a community college court. Is that correct?
    Mr. Bishop. Correct. And that is about the average of a 
community college education for 1 year.
    Senator Durbin. While at the same time we are saying in the 
law no Pell grants, no student loans, this program would say 
$3,000 to ex-offenders for that purpose. Since I do not have a 
lot of time, if you will allow some others to comment. I think, 
Ms. Schofield, you were going to respond to my question about 
Pell grants and student loans.
    Ms. Schofield. Actually, sir, what I was going to say is 
that I believe that by the time offenders come out of jails and 
prisons, we have failed them already as far as the educational 
system is concerned, because a lot of them do not have high 
school diplomas, which is why, you know, most people still, for 
robberies--I mean, the highest numbers of crime that are 
committed by people are people that steal for money, whether it 
is motor vehicle thefts or robberies or simple assaults or 
other types of things like that. And they do that because they 
do not have a way of obtaining money.
    So I think by the time people get to a point where they are 
in a community college, we may have failed them at an earlier 
age.
    Senator Durbin. I went into Englewood, which is a pretty 
tough section of Chicago, because a local group called 
CeaseFire brought together gang members for me to meet with. 
And I sat down with 10 African-American males all under the age 
of 20, all high school dropouts, all who had been incarcerated. 
And I asked them, ``How do you get by? '' And they say, ``We 
hustle.'' I said, ``Well, what does that mean? '' ``It means we 
live off the street.'' ``Well, how do you live off the street? 
Do you sell drugs? '' ``Oh, that has been exaggerated.'' I am 
sure.
    You know, but the point is no marketable skills, 20 years 
of age, already incarcerated, dropped out of school. Some of 
these will never put their lives on the right track. I am 
thinking of some others, though, given a chance with a GED and 
perhaps some college courses or training courses of value, can 
come out of the prison experience ready to really step forward 
in life. And I worry because I think we have cross-purposes 
here. I think you have a good idea, Mr. Bishop, some of the 
things you are talking about. But I think some of the laws we 
pass make it more difficult.
    Now, we get back--and I will end, Mr. Chairman, very 
quickly by saying we get back to the ultimate moral dilemma 
here. There is not enough money for the kids who did not commit 
crime. Okay? It has been stuck at $4,015 a year for 6 years. 
The cost of higher education has gone up 44 percent in the last 
6 years. We have just raised student loan interest rates by 2 
percent on every student in America. We will not let them 
renegotiate lower interest rates on their loans. They are piled 
up with debt. That is the other side of this equation.
    So we are playing less than a zero sum game here, but we 
understand if we are serious about recidivism, some of these 
things have to be addressed honestly.
    Thank you, Mr. Chairman.
    Chairman Coburn. Just one note of clarification. The 
Workforce Investment Act has in excess of $1 billion that is 
not spent every year now. So we have the money to do this, and 
I will pledge to you I will work with you to try to get this 
money redirected in that direction for education.
    Senator Durbin. Good.
    Chairman Coburn. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman, for having this 
hearing. I think it is very, very valuable.
    My experience, having seen it up close for quite a number 
of years, is that we have an incredible amount of money being 
spent that is relevant to dealing with crime but is not spent 
in a coherent fashion.
    Now, my housing man here, I am not sure he is talking to 
the probation officer for the guy who just got released from 
prison. The job man, I am not sure who knows what is available. 
We have got the Office of Justice Programs here that is running 
programs, but I guess the Bureau of Justice Statistics, BJS, do 
they run the tests? Do they run the studies for accuracy and 
completeness?
    Ms. Schofield. Actually, it is our National Institute of 
Justice that runs the programs and evaluates them.
    Senator Sessions. NIJ runs them. Well, there we go with a 
lot of different studies. And so then we have got mental 
health.
    Now, the one program--and I know Senator Durbin also is 
interested in all of this, but the one program that seems to me 
to come closest to a workable model is the drug court program. 
You mentioned that, Ms. Nolan, and this is what happens: They 
come in and, for the most part, they plead guilty, if they are 
guilty of a drug offense. In some programs they do not enter a 
plea. They enter a conditional plea. And they go into this 
voluntary program in which they are, as you said, supervised, 
drug testing--and I forgot your third one, but that--
    Ms. Nolan. They are held accountable, sir.
    Senator Sessions. Held accountable. They are held 
accountable. So the person is now released.
    Now, somebody is monitoring that person by name. They know 
that person. The judge has released him. He knows that person 
by the name. The person has been called before that judge, and 
he is told, ``We will release you. You are out, but you have 
got to be accountable to these standards, and you are not going 
to get back on drugs, and you are going to have a curfew.''
    They did this a bit in Boston and had this incredible drop 
in teenage murders in Boston. The probation officers went out 
at night to make sure they were complying with curfew, not just 
the way it really works is you have got a curfew, you have to 
be in at 10 o'clock, and nobody ever goes to check if they are 
in at 10 o'clock.
    They say do not use drugs, but many places still do not 
test to see if they are using drugs. If they are using drugs, 
they are getting into trouble. Sooner or later they are going 
to be arrested.
    So you have got all these mental health moneys that we are 
spending, a lot of housing moneys we are spending, a lot of 
Education and Labor money we are spending. If that is all 
available to the parole officer or probation officer who 
supervises the individual, then something can happen, because 
the judge now is looking right at it, and if they do not comply 
with the probation officer's requirements and the judge's 
requirements, really, then he puts them in jail for a weekend 
or 2 weeks or gives them one more chance, or a month or throws 
them back in the slammer to serve their full time, whatever he 
decides is the appropriate response.
    I see some nods. Ms. Nolan, do you think--and mental 
health, I mean, we know people have got mental problems, and 
that probation officer should be able to call on mental health, 
shouldn't he, and develop a post-incarceration plan that fits 
the needs and capacities of this individual?
    Ms. Nolan. Yes, sir. And one of the things that we are 
doing--
    Senator Sessions. Well, would you agree that one of our 
problems is a lack of coordination and application of all these 
resources in a coherent way? And wouldn't the best person to be 
able to handle that would be the person like a parole officer 
who is assigned to this individual when they are released?
    Ms. Nolan. Yes, sir. We have seen tremendous success with 
the case management approach with our programs at SAMHSA that 
are not only--they work with these individuals that need 
substance abuse treatment or mental health services. They work 
with them. They are able to help counsel them. They are able to 
help refer them to treatment when needed. And it is very 
important, and we do hold our grantees accountable for making 
sure that they are linking with the criminal justice side of 
the operation.
    Senator Sessions. Some mental health programs, they get 
State money and Federal money.
    Ms. Nolan. Right.
    Senator Sessions. Sometimes they say they are too busy, 
they have got a waiting list, they do not have time for this 
new prisoner that just got released, come back in 6 months and 
we will put you on the list, are some of the things that 
happens. Isn't that correct?
    Ms. Nolan. Yes.
    Senator Sessions. Now, in housing, just briefly, because my 
time has already gone over.
    Mr. Bogart. Absolutely, sir. One of the constraints that we 
have at HUD is we do not have specific funding for prisoner 
reentry. So as a result, because of statutory reasons, we do 
not have funds to spend on this particular issue, and that is 
why we are asking Congress to appropriate the $25 million to do 
that, because if you talk about coordination, you know, when we 
go out and do--
    Senator Sessions. Well, how do you start this program? Do 
you pick out $25 million, do you pick out 30 cities in America 
and run this program?
    Mr. Bogart. Well, sir, that was one of the things I was 
going to get to. The Departments of Labor and Justice have 
already done a lot of the heavy lifting. They have identified 
30 organizations in a number of cities where they are combining 
their resources. So here we have a situation where, with the 
right funding, it is feasible that we could partner with them. 
They are already three-quarters of the way there or halfway 
there. We come in and provide the transitional housing services 
that these men and women who have just come out of prison 
desperately need.
    Senator Sessions. You are coordinating that with the 
Department of Labor?
    Mr. Bogart. I am sorry?
    Senator Sessions. You are coordinating with who, the 
Department of Labor?
    Mr. Bogart. We would take that--
    Senator Sessions. That is not the person to coordinate 
because he does not know the name of the person that got out of 
jail. I mean, that--
    Mr. Bogart. But the--
    Senator Sessions. My time is over, and I hate to--I know, 
Mr. Bishop, if you could point out, am I on to something here?
    Mr. Bishop. You are. I think the premise of your question, 
as I understand it, is each of us funds, to the tune of 
billions of dollars, various systems. I fund a work force 
investment system--
    Senator Sessions. Fifteen billion on--
    Mr. Bishop. Out of agency it is about 9.5, but under the 
one-stop career centers, HHS has moneys, the Department of 
Education has moneys that are all supposed to be accessible by 
individuals through the one-stop systems, and it is to the tune 
of about $15 billion per year. HUD has its system of housing 
authorities that it helps fund, and HHS and Justice.
    So what we have been trying to work on at the Federal level 
is--and many of us meet on a continual basis, and our career 
staffs are meeting on a continual basis, to try to 
institutionalize this notion that we have to break down these 
system barriers from Federal to State to local to 
institutionalize change, because I think you are exactly right, 
that the issue isn't always do we or do we not have enough 
money. The question becomes how is the money currently being 
used that we fund at the Federal and State and local level.
    Senator Sessions. Exactly. I hate to run, and I have 
something I have got to go do at this moment. But, Mr. 
Chairman, the only person, I think, that can handle this is the 
parole officer whose responsibility is for post-incarceration 
supervision. And the way this system is so simple that it 
should work is that person should evaluate the person being 
released before they are released. If they have got a mental 
health problem, they deal with it. If they do not have a house, 
they deal with it. If they need job training, they deal with 
it. They call these agencies, and they should respond to them 
and put them high on their list because these are at-risk 
people, and existing moneys out there ought to be enough. To 
create one more program is difficult.
    Chairman Coburn. Senator Sessions, you missed my opening 
statement where I praised western North Carolina and eastern 
Missouri because the parole officers have done exactly that. 
Their unemployment rates are less than the community as a whole 
and the recidivism rate is down, and so you point is well 
taken.
    I also would put in for the record what Minnesota is doing 
through MinnCorps because they have coordinated everyone, and 
their recidivism rate is half the national average because they 
are coordinating everything. So I am just going to ask--I am 
going to submit some written questions to you because of our 
time constraints today, but one of them that is coming to you: 
What are the programs? What are you measuring? And what are you 
finding? And the second question that is going to go to each of 
you is: How are you coordinating with every other agency in the 
Federal Government to make sure those grants go to the same 
people so that it can be coordinated?
    Let me thank you. We could go on for hours. I have got a 
list of questions, and you will get all of those questions as 
well. And if you would be as timely as you can, somewhat more 
timely than OMB in terms of screening your testimonies today, I 
would very much appreciate it. This is not something that we 
are going to give up on. If we want to make an impact on our 
society, a major impact, the way we are going to do that is the 
care and treatment of prisoners. What they learn in prison they 
are going to apply on the outside. And so we have to make sure 
that that is a positive experience rather than a negative 
experience.
    Thank you for your testimony.
    Chairman Coburn. I call up our next group of witnesses.
    Our second panel, we have Mr. Roger Werholtz. He is the 
Secretary of Corrections, Kansas Department of Corrections. Mr. 
Werholtz was appointed Acting Secretary of Corrections by 
Governor Bill Graves on September 30, 2002, and was appointed 
Secretary of Corrections by Governor Kathleen Sebelius on 
January 13, 2003. He served as Deputy Secretary of Corrections 
since 1987 and has supervised all three divisions of the Kansas 
Department of Corrections: Community and Field Services; 
Programs and Staff Development; as well as Facilities 
Management. Thank you for traveling all the way here to do 
this.
    Next, and not least, is B. Dianne Williams, President and 
Chief Executive Officer of the Safer Foundation. She was named 
President of the Safer Foundation in February 1996. The Safer 
Foundation is one of the Nation's largest private, nonprofit 
providers of social services, education programs, and 
employment training and placement exclusively targeting people 
with criminal records. Under her leadership the Safer 
Foundation has incorporated the ``What Works'' principles 
adopting evidence-based program designs and evaluations. Under 
contract with the Illinois Department of Corrections, Safer 
manages two large adult transition centers with a total of 550 
beds.
    If you would both stand and be sworn in, and I will do it 
the short form: I swear that the testimony I am about to give 
before this Committee is the truth, the whole truth, and 
nothing but the truth, so help me God.
    [Witnesses repeat oath.]
    Chairman Coburn. Or you can say ``I do.''
    [Laughter.]
    Chairman Coburn. Mr. Werholtz, please give us your 
testimony.

 STATEMENT OF ROGER WERHOLTZ, SECRETARY, KANSAS DEPARTMENT OF 
                  CORRECTIONS, TOPEKA, KANSAS

    Mr. Werholtz. Thank you, Chairman Coburn, Ranking Member 
Durbin. I appreciate the opportunity to testify today. My name 
is Roger Werholtz, and I currently serve as the Secretary of 
the Kansas Department of Corrections. I appreciate the chance 
to comment on funding for prisoner reentry and the 
relationships between Federal agencies and the State 
Departments of Corrections.
    Every year more and more people are coming out of prison 
and jail, and the way we have traditionally released and 
returned them to the community is making neighborhoods less 
safe, less healthy, and less stable. Prisoner reentry also 
impacts our State and Federal budgets. Spending on prisons and 
jails has soared from $9 billion to $60 billion over the past 
20 years, and despite all of this spending, recidivism rates 
are as high as ever.
    When such a large percentage of people released from prison 
fail, it places a greater financial burden on taxpayers without 
substantially increasing public safety. Corrections officials 
face the challenge of reinventing our corrections system to 
drastically reduce recidivism rates, and together we can 
improve public safety, generate savings, and strengthen 
neighborhoods.
    Federal agencies providing funding to organizations such as 
mine that allows us to pursue innovations or put in place 
resources that would otherwise be beyond our reach. In the 
current State fiscal year, my State of Kansas will expend $1.9 
million in Federal grant funding. Now, that comprises only 0.71 
percent of the Kansas Department of Corrections' annual budget, 
but for that less than 1 percent of our budget, the impact on 
our agency and the citizens of our State is huge. With these 
Federal funds and a blend of State, local, and private 
revenues, we will be able to provide a variety of services to 
crime victims and assist in the successful reintegration of 
offenders into their families.
    Grant programs such as the Serious and Violent Offender 
Reentry Initiative and the Violent Offender Incarceration/Truth 
in Sentencing Program have significantly influenced State-level 
correctional practice and State sentencing policies. In Kansas, 
the small reentry program initiated with SVORI funding has 
served as a model that has heavily influenced the training of 
KDOC parole and facility employees regarding effective 
strategies for offender supervision. It has helped us to 
dramatically reduce the number of parolees being revoked and 
returned to prison. Our SVORI-funded program is being evaluated 
by the University of Kansas and is also part of a larger 
national evaluation funded by a separate Federal grant. Our 
results to date are so encouraging that the State and one of 
our largest counties have invested significant amounts of money 
to replicate the strategies in other cities in Kansas, but I 
must caution that these numbers are still preliminary and we 
will need to observe the impact over time to accurately judge 
the effectiveness of these efforts.
    Eighteen months ago, Senator Brownback challenged a 
bipartisan group of elected officials and community members 
gathered in Wichita by saying, ``I want to see recidivism in 
this Nation cut in half in the next 5 years, and I want it to 
start in Kansas.''
    Using the model developed with SVORI resources, the 
Department of Justice technical assistance and technical 
assistance from National Institute of Corrections and research 
and technical assistance from the Council of State Governments, 
we are well into that initiative. We have made significant 
progress over the last year. We have reentry programs underway 
or being established in our three largest metropolitan 
counties, and the Shawnee County reentry program is receiving 
national recognition.
    The State has established the Kansas Reentry Policy 
Council, an interagency and intergovernmental branch 
coordinating body, and the State's efforts are achieving 
measurable results. The number of parolees who failed to meet 
conditions of supervision and were returned to prison dropped 
significantly, by 26 percent in the last 2 years, and in the 
last 4 months those numbers have been cut in half. As a result, 
the overall prison population shrank rather than increased, and 
Kansas has been able to avoid spending revenues on increasing 
prison capacity.
    I also appreciate the Committee's interest in our 
interaction with Federal agencies around reentry. Federal 
agencies such as the National Institute of Corrections, the 
Bureau of Justice Assistance, the Bureau of Justice Statistics, 
and the Office of Justice Programs regularly provide 
opportunities to improve correctional practices through very 
modest investments. These agencies provide technical assistance 
and training opportunities in which State and local leaders can 
have direct access to the most current research and thinking on 
current correctional practice. The research and analysis 
performed and disseminated by Federal groups such as the Bureau 
of Justice Statistics are invaluable in assisting us and 
informing our own Governors, legislators, the media, and the 
public about the true nature of the problems we face and the 
most effective responses to those problems.
    Recently, the Association of State Correctional 
Administrators and the Bureau of Justice Assistance entered 
into a joint project to establish a clearinghouse that would 
assist State corrections agencies to track Federal funding 
opportunities and compete more successfully for those 
resources.
    In summary, I would like to characterize our overall 
relationship with our Federal agency partners as highly 
collaborative, productive, active, and respectful. We are 
actively engaged with many of those Federal agencies with whom 
we most closely associate, to further enhance our ability to 
carry out our respective missions. I am grateful for the 
opportunity to brief the Committee and would be pleased to 
answer any questions that you may have.
    [The prepared statement of Mr. Werholtz appears as a 
submission for the record.]
    Chairman Coburn. Thank you, sir.
    Ms. Williams.

 STATEMENT OF B. DIANE WILLIAMS, PRESIDENT AND CHIEF EXECUTIVE 
          OFFICER, SAFER FOUNDATION, CHICAGO, ILLINOIS

    Ms. Williams. Good afternoon, Senator Coburn, and my great 
Senator Durbin. I thank you for this opportunity to testify on 
behalf of the community-based organizations that are on the 
front line. They are addressing the needs of former prisoners 
as they return to their communities.
    I thought I would start by sharing a story about one of our 
clients. After all, reentry is about real people with real 
families and from real communities.
    Joshua Hodges is one of our stars. He is almost 21 years 
old and is attending Chicago State University, with a goal of 
going on to earn his MBA so he will be able to support himself, 
a future family, and help others in the community. Joshua 
believes he is an entrepreneur.
    Joshua had been living at Aunt Martha's House, a homeless 
shelter that accepts teens, and working for some time when 
something happened that changed his whole life. He got arrested 
and spent 3 months in the Cook County Jail. Josh had no 
previous record and received 2 years' probation.
    While he was incarcerated, one of his cellmates told him 
that Safer helped ex-offenders obtain a GED and find 
employment. When he was released, he immediately enrolled in 
our Harvey Employment and Learning Center, which is a federally 
funded program, and embraced the program and the staff with a 
fury. At the end of the 2-month GED session, Josh passed with a 
score of 2,780. He only needed 2,250. So he did not pass by the 
skin of his teeth. He did a great job.
    Working with our staff, he completed his individual service 
plan, college financial aid forms, enrolled at Chicago State, 
and at the end of his first semester had achieved a GPA of 4.0. 
At Safer, we have been working to reduce recidivism for 34 
years by supporting the efforts of people like Josh with 
criminal records to become productive, law-abiding members of 
their communities.
    I am pleased the Subcommittee is taking up the issue of 
Federal support of prisoner reentry today. In the past, reentry 
has often been considered a State or local issue, and most 
national public policy decisions have been made out of the 
concern of supporting people with criminal records sends the 
wrong message. But I am encouraged that Washington is beginning 
to think differently, to recognize that we cannot continue to 
utilize incarceration as the answer to public safety.
    To truly impact the growing numbers of people going to 
prison, education, vocational training, and employment options 
that allow for a living wage must top the list. They are 
critical, but cannot be offered in a vacuum. Treatment, 
housing, and case management must be a part of the solution 
given the complex and multifaceted issues surrounding former 
prisoners.
    For example, Chicago has benefited from the importance the 
Ready4Work Program and the Prisoner Reentry Initiative both 
place on partnerships. These Department of Labor funds have 
enabled Safer to formally partner with nine smaller community 
and faith-based organizations and thereby support their 
capacity to provide mentoring and wrap-around supports to those 
returning from prison. We have been free to do what we do best, 
which is to specialize in job placement and retention. Our 
partners are also free to do what they do best: ensuring that 
the returnee's more personal needs were being met. We believe 
that this unique partnership has been critical to the 
significant decline in recidivism for our Ready4Work and PRI 
clients.
    At the end of year three of Ready4Work, we have served over 
430 returning prisoners with less than a 10-percent recidivism 
rate. Congress must continue to provide leadership and the 
Federal Government must continue to fund experts to provide 
technical assistance and capacity building. Only then will 
States and local jurisdictions have the ability to implement 
program models that work and bring them to scale rather than 
spending precious resources reinventing the wheel and/or 
developing their own expertise.
    Legislation such as the Second Chance Act, authored by 
Senators Specter, Biden, and Brownback of the Subcommittee, 
begins to enable communities to have planned and coordinated 
support for people returning from prison.
    In closing, let me just underscore that no single 
intervention will solve the reentry problem, but the research 
findings are clear. Education and employment have the greatest 
impact on recidivism.
    The other reality is that the majority of individuals 
leaving prison and returning home or returning to communities 
that are disproportionately low-income, crime-ridden, home to 
racial minorities, and lacking in the needed social services 
and supports that are going to enable returnees to succeed. As 
a result, the majority commit a new crime or violate the 
conditions of their release and return to prisons to begin the 
process all over again, leaving our Nation to confront the 
highest recidivism rate in its history.
    While the success or failure of return falls most heavily 
on the returning individual, the decisions that lead to success 
or failure lie with that person. As a society, we must equip 
the individual.
    On behalf of Josh, the communities in which Josh and his 
colleagues live, and people like Safer's employees who work so 
hard on behalf of those returning from prison, I will leave you 
with six brief recommendations.
    One, ensure that Federal funds are used to support 
comprehensive reentry initiatives. Direct funds toward 
community-based groups that are in a position to provide 
coordinated services, with a focus on hard outcomes.
    Two, continue supporting what we know works via the 
Prisoner Reentry Initiative, with an added transitional 
employment component. And I hope you will ask me about that 
transitional employment component.
    Three, encourage innovative statewide solutions that 
utilize a justice intermediary to coordinate city, State, and 
county efforts under a coordinated umbrella.
    Four, reinstate access to Pell grants or Pell grant-like 
funding during prison so that prison time can be used for 
educational and vocational preparation. Make sure those efforts 
are tied to the labor market.
    Five, encourage the Department of Labor and Department-
funded State agencies that review labor shortage projections to 
coordinate efforts of targeted training with prison systems.
    And, six, increase the Work Opportunity Tax Credit from 
$2,400 to $10,000 so that employers are more interested in 
hiring people.
    Thank you again for this opportunity to testify this 
afternoon.
    [The prepared statement of Ms. Williams appears as a 
submission for the record.]
    Chairman Coburn. Thank you, Ms. Williams.
    A lot of what you said, Ms. Williams, and what I think you 
all are doing is a coordinated, comprehensive approach. And 
what we see--we actually talked yesterday to Michigan, 
Minnesota, and Montana, which are seeing some successes, much 
like what I think you are about to see in Kansas.
    Recognizing we live in a limited budget area--I mean, it is 
coming. It is going to get worse. It is not going to get 
better. What is your advice to us on how we make what we do--
the limited amount of money that we put out there, how do we 
make it effective? Some of it was what you suggested, but how 
do we use that money to leverage that to get other States to do 
what you are doing? Because this is really an investment. In 
Kansas, every person you do not have incarcerated is a win-win.
    Mr. Werholtz. That is correct.
    Chairman Coburn. It is a double win. So what would be both 
of your advice to us in terms of Senator Durbin and myself? How 
do we stimulate, with the limited amount of dollars that are 
going to come from the Federal Government? And it is going to 
be limited. You should not have any expectation that it is 
going to increase. It is not. What should we do?
    Ms. Williams. I will offer you two suggestions. And if you 
would let me, I would probably give you 40.
    Chairman Coburn. Well, I probably might even let you. We 
have a meeting with Secretary Rumsfeld and some of the Defense 
Department here in a minute, but I am willing to listen up 
until that time.
    Ms. Williams. One of the things we need to do is we need to 
make sure that those partnerships are not just limited, quite 
frankly, to the Federal Government, to State government, and 
even to not-for-profits. We need to include the for-profit 
sector in those partnerships.
    The transitional jobs program that I mentioned to you 
earlier is one in which we have actually formed a staffing 
company. We formed a limited liability corporation under our 
not-for-profit, and we actually have a contract with a for-
profit company to staff 220 entry-level positions and the 
related supervisors for that staff, for that not-for-profit. We 
structured it just like a staffing company, and the for-profit 
sector would do that. So that as we get better at it and as we 
are able to grow, we will have dollars to reinvest on the 
program side, because what we know is that just finding 
somebody a job and sending them there for the first day is not 
all that is needed to make it successful.
    And so we do surround that person that we place in those 
transitional jobs with the services that they need: access to 
GED classes, what we call retention specialists and what other 
people might call case managers. And we actually provide that 
support onsite of the workplace for those clients.
    Chairman Coburn. Could we also not change the rules for 
housing through HUD to say that if you are coming out of a 
prison you can have access to HUD housing?
    Ms. Williams. That would be--
    Chairman Coburn. Why couldn't we do that?
    Ms. Williams. That would be tremendous to have that shift 
occur.
    Chairman Coburn. I can tell you, in Oklahoma we have a lot 
of empty HUD housing. Why should we say you are ineligible for 
that?
    Ms. Williams. I do not think we should say that. And just 
as you talk about Oklahoma, you can certainly imagine the 
communities in Chicago where there is housing that could be 
rehabbed. People could move into those houses. They could have, 
if you will, support to learn how to operate as perhaps a condo 
association. Some of that money that they are paying for rent 
could be used or held, if you will, in escrow as part of a 
downpayment. They could ultimately buy those units, and then 
they could build other housing to have the same sort of thing 
occur.
    Housing is critical, and you are absolutely right that we 
need to move from that.
    Chairman Coburn. Mr. Werholtz.
    Mr. Werholtz. Let me make three suggestions and run through 
them quickly. I know your time is limited.
    One is funding innovations. The second would be improving 
States' data systems. I know there was a discussion with the 
earlier panel about frustration with information. Part of that 
is because States like mine are working with extremely archaic 
data systems where there is a lot of information in there that 
is very difficult to get back out. And then the third piece is 
one that I do not think costs anything, but that is delivering 
a message. One of the reasons why we have been successful in 
what we have done over the last 2 years in Kansas is because it 
is a bipartisan effort. My Governor is a Democrat, Senator 
Brownback obviously a conservative Republican, and both of them 
are saying the same message. And that has gone a long way to 
lower the temperature about the issue offender reentry and how 
to manage crime and corrections.
    I think oftentimes we get wrapped up in the issue, which 
Senator Durbin had alluded to, about what the men and women 
incarcerated in our system deserve. Well, we are mad as hell at 
them. They may not deserve anything. But I think we are asking 
the wrong question. It is what we deserve as taxpayers and law-
abiding citizens, and what we deserve is for them to stop 
hurting us and stop victimizing us. And when we reframe the 
debate that way, I think it leads to a whole different set of 
answers that otherwise cannot be considered.
    The innovation funding that I mentioned, going back to the 
SVORI program, relatively small amount of investment in Kansas 
that allowed us to experiment with a new program which, as a 
result of what we learned in that, we retrained all of our 
parole staff and are in the process of retraining our facility 
staff and community corrections programs, which are county-
funded programs, redefining the role of a parole officer to a 
case management kind of model, so that their primary 
responsibility is helping the offender succeed and comply with 
conditions of release in the first place, rather than catching 
them violating those conditions and reacting to that.
    But that is a large leap that takes some political cover 
for line staff to feel safe in doing that, because when there 
is a tragedy, people are going to sweep down, second-guess the 
decisions that were made, and it is that line officer that 
bears the brunt of the criticism oftentimes.
    Chairman Coburn. But the measurement of that is what do we 
expect, and what we expect is to have a correction take place 
during corrections and create opportunities so that it is not 
there again.
    Mr. Werholtz. Precisely.
    Chairman Coburn. Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman. And, Mr. Chairman, 
at the risk of throwing raw meat your way, Mr. Werholtz did not 
read his entire statement, and I want you to be sure to get to 
page 5.
    My colleague here is a watchdog on earmarks, and since I am 
on the Appropriations Committee, I view this issue a little 
differently than he does. But I have argued that there are 
earmarks that have nothing to do with money but end up having a 
lot to do with money. And Mr. Werholtz gives an example of an 
effective lobbyist in Washington who stuck a word in a bill 
and--well, why don't you explain it?
    Mr. Werholtz. That is in my written testimony, and I am 
referring there--at least the piece I think you are referring 
to is in the VOI/TIS funding. One of the major frustrations 
that we experienced when we received our VOI/TIS grants and 
wanted to purchase prison capacity because we were over 
capacity at the time and were trying to expand our system, we 
learned that we could only purchase that prison capacity from a 
private vendor. We could not purchase it from another 
Government entity.
    What that meant was that we had to ship inmates out of 
State further away from their families, where it was more 
difficult for us to monitor their care and confinement, because 
we could not use VOI/TIS funds to lease jail space from our 
local sheriffs who had available and adequate jail space to 
provide--
    Senator Durbin. Which put a strain on families and cost a 
lot more.
    Mr. Werholtz. Absolutely.
    Chairman Coburn. Which increases recidivism.
    Mr. Werholtz. Correct.
    Senator Durbin. Maybe I can join my watchdog on this effort 
here and maybe look at--
    Chairman Coburn. I have got a whole lot more for you to 
join.
    [Laughter.]
    Senator Durbin. Ms. Williams, thank you for being here. 
Thank you for Safer.
    Ms. Williams. Thank you.
    Senator Durbin. You are the best, and you have such a great 
reputation for what you do.
    I am going to open a subject which, sadly, we ought to 
devote more than one hearing to. But I think it is part of the 
reality of this conversation about recidivism.
    One in three black men in America with only a high school 
diploma will go to prison before the age of 40. In the city of 
New York, two out of five black men are jobless, and a key 
factor in this low rate of employment among black men is the 
high percentage of those with felony convictions. The 
statistics are grim, and I have used them in this room many 
times. African-Americans representing about 15 percent of our 
population and about 15 percent of the violations of drug laws 
are arrested, tried, convicted, and incarcerated at much higher 
percentage rates. I think the figure is more than half of those 
who go to prison for drug crimes are African-American men.
    Ms. Williams. That is correct.
    Senator Durbin. Now, the analysis--and this comes out of 
New York, a man named David Jones from the Community Service 
Society. Are you familiar with Mr. Jones?
    Ms. Williams. Yes.
    Senator Durbin. This is something I want to read to you 
because I think it is worth your comment, and maybe Mr. 
Werholtz as well.
    An experiment was conducted where black men and white men 
with equivalent resumes of education and experience posed as 
applicants for entry-level jobs. The white men admitted to 
having a criminal record. The blacks had no record. The result? 
White men with criminal records had a better chance of getting 
a job offer or a call back after an initial interview than did 
black men without records. And black men with criminal records 
were only about one-third as likely to get a job offer as were 
white men with criminal records.
    Talk to me about the issue of race and recidivism.
    Ms. Williams. There is absolutely a correlation. If we look 
at the whole issue of the kinds of communities the people who 
are going to prison come from, if we look at the poverty level, 
the education level, we look at, if you will, every aspect of 
that community, they are clearly inner-city communities 
populated with African-American men who have grown up in many 
cases not going outside of a four- to six-block radius and 
having no expectation that their lives would look anything like 
anything outside of that four- to six-block radius, which means 
that they have an expectation that the only way they are going 
to have an opportunity for, if you will, wealth or some status 
is that they are going to be part of the drug trade or they are 
going to be part of some other sort of criminal activity. That 
is the only one that shows up that way in their community.
    When we come to actually looking at the kinds of crimes 
that are committed, to your point, they are no different in 
Chicago than they, quite frankly, are in Highland Park. How 
they get treated is what is different. What happens to a person 
once they have been identified as having drugs in their 
possession is different. So the arrest rate is different for 
those who are caught with drugs. Lots of studies have shown 
that the incarceration rate, as you are saying, is different 
for those who are convicted of having those drugs. And then we 
still have that population of people in the world of corporate 
America or employment that have with them prejudices that they 
were raised with, so they see a black person, they think they 
are not going to work. They see a black person--not only will 
they not work, they will not come to work. There are all of 
those stereotypes that are still sitting out there from many 
years ago that have not been cleaned up. And what we all know 
is that that is not necessarily true.
    Do you want to hear my personal story? I started out in 
public housing in the city of Chicago. I since that time have 
gone on to school. I have a master's degree in business from 
Northwestern University. It has nothing to do with intelligence 
or capability. It has everything to do with belief that you can 
do it, that there is an opportunity for you to do it, and then 
to have the space to do it.
    Senator Durbin. Thank you.
    I see Senator Brownback is here, and I know he has a 
witness he would like to ask a question of, so I am going to 
end at this point. Thank you.
    Chairman Coburn. Senator Brownback.
    Senator Brownback. Thanks very much, and thanks, Senator 
Durbin, for recognizing and passing this on to me.
    Secretary Werholtz, thanks for being here. I stayed in one 
of your facilities a couple months ago at my own volition. I 
was not convicted. And I came out at my own volition.
    [Laughter.]
    Senator Brownback. I want to hasten to add that.
    As I was taken off and I stayed there overnight in the 
facility, as I was leaving home with a bag packed, my 8-year-
old daughter said, ``Bye, Daddy who is going to prison.'' And I 
unfortunately then told that story in the prison, which was a 
story that a lot of the men there could identify with, and they 
were not laughing about it. So I did not know my audience well 
in saying that, because a number of them have children on the 
outside. It is a very painful and very difficult thing.
    I want to compliment you on what you are doing, and I want 
to compliment those around the country that are doing these 
innovative type of programs and really working on mentoring 
with the individuals before they leave prison and then staying 
in that relationship once they get out of prison.
    It strikes me that the guys I have met, both in the 
facilities there, in homeless shelters here in D.C. and other 
places, that one of the big things that happens to them is they 
get separated. They get isolated. Something happens. They start 
using drugs or alcohol. They break away from their family. They 
break away from their friends or they get separated, and then 
they start more criminal activity and it just goes down. And 
they need connections. They need people to invest in their 
lives.
    That is what I saw in your facility. We have these people 
coming in from outside, investing in their lives, investing not 
only when they are there but also just before they are leaving, 
and then after they leave the facility. And I think, Chairman, 
what the whole thing really requires is us to just say that 
these people have worth. Yes, they have committed a horrific 
crime. They have done a very bad thing. They owe a debt to 
society. They have got to pay that debt to society. We have got 
too many people in prisons, and at some point in time, most are 
going to come out. And we do not want them to do it again. And 
we have not, I think, answered that question adequately.
    So that is why, you know, I compliment some of the work. I 
do not think we are doing enough of it that we are going on to 
see that they do not go back in and do it again. And one sure 
way as well is saying, you know, if you did the crime, you have 
a debt you will pay to this society, you should not do that, it 
is wrong, and you are going to pay a debt to that. But now once 
you have paid it, we want to work with you to make sure you do 
not go back into this system again.
    That is what the Second Chance Act is that you and a number 
of other people have been strong supporters of and helping the 
system, and I want to encourage you on continuing to do that 
and providing that model, building a relationship on both the 
left and on the right, because we can all identify this is a 
problem. Getting to the right solution is going to be somewhat 
difficult to do.
    Do you have numbers on the recidivism rates that have 
occurred in the programs where you have worked on building 
these relationships and job skills of what it has done to 
recidivism rates?
    Mr. Werholtz. We do. I need to caution you that they are 
very preliminary numbers because the history of the programs is 
so short. But what we have been able to do in the last 2 years 
is cut recidivism for parolees, those people being released 
from prison, by about 25 percent, and over the last 4 months we 
have actually met the challenge that you gave in Wichita in 
April of 2005, and our recidivism rates have been cut in half.
    The question that I think remains is whether we can sustain 
those numbers over time, because a lot of what we have 
achieved, we have achieved through relationships, either 
through the retraining of our staff to perform a new function 
or through the relationships that you described in the program 
that you visited, whereby people from the community--in this 
instance, a faith-based program, but we also have police 
officers, we have treatment program people, folks from our 
community mental health centers and our employment centers who 
actually begin working with the prisoners while they are still 
incarcerated, typically 12 to 14 months prior to release. And 
so, in fact, at this point the majority of the people that they 
are working with are still incarcerated and preparing for 
release.
    But I think you hit a critical point, and that is that we 
have got to understand that the problem is larger than our own 
system. One of the things that is unique about what has 
happened in Wichita is that the county and the city were so 
impressed with what was going on and the leaders there believed 
so strongly that this was important that they appropriated 
funds and in-kind services to match our State general fund 
budget to replicate the Topeka program in Wichita.
    One other set of numbers that I might be able to share with 
you is the Topeka program, which is Shawnee County, the one 
that has the longest history, it targets the most serious, 
highest-risk offenders who are exiting our prisons and going 
back to our capital city. We would expect those individuals, 
because they are at such high risk, to return to prison 
somewhere at the rate of about 70 or 80 percent within the 
first 3 years.
    Now, we have only got a little over 12 months of history 
for those folks in the community, but they are returning at the 
rate of about 20 percent instead of the 70 to 80 that we would 
predict, or the standard 50-percent number that--
    Chairman Coburn. Yes, the national average is 50 percent in 
the first 6 months.
    Mr. Werholtz. Correct. So, again, I would not want to hang 
my hat on those numbers and say we have proved our case yet, 
but they are hopeful enough that the State and some local units 
of government are investing money and trying to expand this 
effort.
    Senator Brownback. I am glad they are doing that. This is--
    Chairman Coburn. Senator, can I interrupt?
    I am going to ask Senator Brownback to close out our 
hearing for me and take over the gavel. We have unanimous 
consent that the statements by Senators Biden and Feingold be 
placed in the record, which will be done. And we will announce 
a week before closing for questions for the members of this 
Committee to be submitted, and I would appreciate it if you 
would close out this hearing for me.
    Senator Brownback. I would be happy to do that.
    Chairman Coburn. Thank you. I thank our witnesses.
    Senator Brownback [Presiding.] Thank you very much. And I 
will not be long on this.
    I do want to point out that the program that I visited was 
with a faith community, and what I am very pleased to see is 
that people are willing to integrate that, and the facility I 
visited in Ellsworth, it was a Christian faith community, but 
there was also a Native American faith community that was 
involved, and there were a couple of others. I am not sure what 
all else was there, if there was an Islamic community and a 
Jewish community or not, but I saw the Native American one that 
was there as well. So it was not anything that is exclusive to 
any one, but it did have to be reputable, it did have to be 
based in the prisoner's belief system. And I think that is 
important to be able to integrate in with this as well.
    The other thing, I just want to comment on this as I close 
because I need to get over to the floor as well. I saw an 
article yesterday or the day before about the militant radicals 
in Europe penetrating the prison system and recruiting radical 
terrorists out of the prison system. I think that is something 
we should be aware of, A.
    B, if we do not want that to happen, I think we need to 
really go in our own system and work with men--men in 
particular, women, too, but men in particular--in a positive 
fashion to really try to give them some hope back in their 
lives if we do not want to see our prison system turn as well 
into some recruitment ground for real radical terrorist type 
elements to be able to come out of in a homegrown fashion. So I 
think it is good also for our security and our future.
    Thank you for these efforts. I hope you can continue to 
support our Second Chance Act. It is my hope and will be prayer 
that we would get it across the line this legislative session. 
It is not going to be a big bucket of money, but it is going to 
be some, and we hope to incentivize these types of programs, 
with the target of cutting recidivism rates in half in 5 years. 
I want us to have a hard number on this thing so that people, 
when they go into it, you know what you have got to hit, and 
this is what we are after.
    And also it says to the rest of society at large, this is 
not a soft-headed program. This is not us just kind of being 
mushy on crime. This is being very realistic and this is being 
very hard-nosed, and bottom line, we do not want these guys 
coming back to prison. We want them out, productive members of 
society, and if your program can produce that, God bless you. 
We are going to help support it. If you do not, we are not 
going to fund it, period. We have got to hit the number, and it 
is important. It is important to society, and it is important 
to these individuals.
    And I hope as well we can work with their families, too. 
The numbers on family members of people that are incarcerated 
that then end up going to jail is way too high. I think it is 5 
times the likelihood if your parent is in jail that you will go 
to jail. I had personal experience of that as an attorney in 
Manhattan, Kansas, when I was representing criminal indigents, 
and I would go to my senior partners, and I would say the name. 
They would say, ``Oh, yes, I represented his Dad''--or his 
uncle or something. And you would say, ``Well, why is that?'' 
Well, I am not sure why. But it does happen, and I think we 
need to really work with these families. I have seen some 
pretty innovative programs of starting to work with the family 
members, too, to prevent this from continuing to happen.
    So I appreciate your work. God bless you for doing it, and 
I hope we can get this bill across the line and we can continue 
to show those good results. Thanks for shining my State.
    The record will remain open the requisite number of days. I 
believe they did say there were some questions that were going 
to be submitted for the record, and these will be within a 
week's period of time. I do appreciate your willingness to 
testify and to look and to answer these.
    The hearing is adjourned.
    [Whereupon, at 4:07 p.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follows.]
[GRAPHIC] [TIFF OMITTED] T4118.001

[GRAPHIC] [TIFF OMITTED] T4118.002

[GRAPHIC] [TIFF OMITTED] T4118.003

[GRAPHIC] [TIFF OMITTED] T4118.004

[GRAPHIC] [TIFF OMITTED] T4118.005

[GRAPHIC] [TIFF OMITTED] T4118.006

[GRAPHIC] [TIFF OMITTED] T4118.007

[GRAPHIC] [TIFF OMITTED] T4118.008

[GRAPHIC] [TIFF OMITTED] T4118.009

[GRAPHIC] [TIFF OMITTED] T4118.010

[GRAPHIC] [TIFF OMITTED] T4118.011

[GRAPHIC] [TIFF OMITTED] T4118.012

[GRAPHIC] [TIFF OMITTED] T4118.013

[GRAPHIC] [TIFF OMITTED] T4118.014

[GRAPHIC] [TIFF OMITTED] T4118.015

[GRAPHIC] [TIFF OMITTED] T4118.016

[GRAPHIC] [TIFF OMITTED] T4118.017

[GRAPHIC] [TIFF OMITTED] T4118.018

[GRAPHIC] [TIFF OMITTED] T4118.019

[GRAPHIC] [TIFF OMITTED] T4118.020

[GRAPHIC] [TIFF OMITTED] T4118.021

[GRAPHIC] [TIFF OMITTED] T4118.022

[GRAPHIC] [TIFF OMITTED] T4118.023

[GRAPHIC] [TIFF OMITTED] T4118.024

[GRAPHIC] [TIFF OMITTED] T4118.025

[GRAPHIC] [TIFF OMITTED] T4118.026

[GRAPHIC] [TIFF OMITTED] T4118.027

[GRAPHIC] [TIFF OMITTED] T4118.028

[GRAPHIC] [TIFF OMITTED] T4118.029

[GRAPHIC] [TIFF OMITTED] T4118.030

[GRAPHIC] [TIFF OMITTED] T4118.031

[GRAPHIC] [TIFF OMITTED] T4118.032

[GRAPHIC] [TIFF OMITTED] T4118.033

[GRAPHIC] [TIFF OMITTED] T4118.034

[GRAPHIC] [TIFF OMITTED] T4118.035

[GRAPHIC] [TIFF OMITTED] T4118.036

[GRAPHIC] [TIFF OMITTED] T4118.037

[GRAPHIC] [TIFF OMITTED] T4118.038

[GRAPHIC] [TIFF OMITTED] T4118.039

[GRAPHIC] [TIFF OMITTED] T4118.040

[GRAPHIC] [TIFF OMITTED] T4118.041

[GRAPHIC] [TIFF OMITTED] T4118.042

[GRAPHIC] [TIFF OMITTED] T4118.043

[GRAPHIC] [TIFF OMITTED] T4118.044

[GRAPHIC] [TIFF OMITTED] T4118.045

[GRAPHIC] [TIFF OMITTED] T4118.046

[GRAPHIC] [TIFF OMITTED] T4118.047

[GRAPHIC] [TIFF OMITTED] T4118.048

[GRAPHIC] [TIFF OMITTED] T4118.049

[GRAPHIC] [TIFF OMITTED] T4118.050

[GRAPHIC] [TIFF OMITTED] T4118.051

[GRAPHIC] [TIFF OMITTED] T4118.052

[GRAPHIC] [TIFF OMITTED] T4118.053

[GRAPHIC] [TIFF OMITTED] T4118.054

[GRAPHIC] [TIFF OMITTED] T4118.055

[GRAPHIC] [TIFF OMITTED] T4118.056

[GRAPHIC] [TIFF OMITTED] T4118.057

[GRAPHIC] [TIFF OMITTED] T4118.058

[GRAPHIC] [TIFF OMITTED] T4118.059

[GRAPHIC] [TIFF OMITTED] T4118.060

[GRAPHIC] [TIFF OMITTED] T4118.061

[GRAPHIC] [TIFF OMITTED] T4118.062

[GRAPHIC] [TIFF OMITTED] T4118.063

[GRAPHIC] [TIFF OMITTED] T4118.064

[GRAPHIC] [TIFF OMITTED] T4118.065

[GRAPHIC] [TIFF OMITTED] T4118.066

[GRAPHIC] [TIFF OMITTED] T4118.067

[GRAPHIC] [TIFF OMITTED] T4118.068

[GRAPHIC] [TIFF OMITTED] T4118.069

[GRAPHIC] [TIFF OMITTED] T4118.070

[GRAPHIC] [TIFF OMITTED] T4118.071

[GRAPHIC] [TIFF OMITTED] T4118.072

[GRAPHIC] [TIFF OMITTED] T4118.073

[GRAPHIC] [TIFF OMITTED] T4118.074

[GRAPHIC] [TIFF OMITTED] T4118.075

[GRAPHIC] [TIFF OMITTED] T4118.076

[GRAPHIC] [TIFF OMITTED] T4118.077

[GRAPHIC] [TIFF OMITTED] T4118.078

[GRAPHIC] [TIFF OMITTED] T4118.079

[GRAPHIC] [TIFF OMITTED] T4118.080

                                 <all>

</pre></body></html>
